<html>
<title> - ORGANIZATIONAL MEETING TO APPROVE COMMITTEE RULES AND OVERSIGHT PLAN, APPROVE THE HOUSE PERIMETER SECURITY PLAN, AND MAKE ANNOUNCEMENTS OF ACTIONS TAKEN UNDER INTERIM AUTHORITY</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
 ORGANIZATIONAL MEETING TO APPROVE COMMITTEE RULES AND OVERSIGHT PLAN, 
 APPROVE THE HOUSE PERIMETER SECURITY PLAN, AND MAKE ANNOUNCEMENTS OF 
                 ACTIONS TAKEN UNDER INTERIM AUTHORITY
=======================================================================

                         ORGANIZATIONAL MEETING

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

            Hearing Held in Washington, DC, February 5, 2003


      Printed for the Use of the Committee on House Administration









                       U. S. GOVERNMENT PRINTING OFFICE
86-543                          WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                   COMMITTEE ON HOUSE ADMINISTRATION

                        BOB NEY, Ohio, Chairman
VERNON J. EHLERS, Michigan           JOHN B. LARSON, Connecticut
JOHN L. MICA, Florida                  Ranking Minority Member
JOHN LINDER, Georgia                 JUANITA MILLENDER-McDONALD, 
JOHN T. DOOLITTLE, California            California
THOMAS M. REYNOLDS, New York         ROBERT A. BRADY, Pennsylvania
                     Paul Vinovich, Staff Director
                George Shevlin, Minority Staff Director


 ORGANIZATIONAL MEETING TO APPROVE COMMITTEE RULES AND OVERSIGHT PLAN, 
 APPROVE THE HOUSE PERIMETER SECURITY PLAN, AND MAKE ANNOUNCEMENTS OF 
                 ACTIONS TAKEN UNDER INTERIM AUTHORITY

                              ----------                              


                      WEDNESDAY, FEBRUARY 5, 2003

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 7:05 p.m., in room 
1310, Longworth House Office Building, Hon. Robert W. Ney 
(chairman of the committee) presiding.
    Present: Representatives Ney, Ehlers, Linder, Doolittle, 
Larson, Millender-McDonald and Brady.
    Staff Present: Paul Vinovich, Staff Director; Jeff Janas, 
Professional Staff Member; Fred Hay, Counsel, Channing Nuss, 
Deputy Staff Director; Bill Cable, Minority Staff Director; 
George Shevlin, Administrative Assistant to Mr. Larson; and 
Matt Pinkus, Minority Professional Staff Member.
    The Chairman. Today the Committee on House Administration 
will be holding its first meeting of the 108th Congress, and 
today we will be adopting our committee rules and oversight 
plan for the 108th Congress as well as considering a motion for 
approval of the House perimeter security plan, on which I 
understand now that all Members have been briefed and had the 
opportunity to be briefed. In addition, we will be voting to 
report a resolution favorably to the House dismissing an 
election contest arising from the 6th Congressional District of 
Tennessee.
    Before I proceed, though, any further, I would like to take 
a moment to welcome all of our Members to the committee for 
this session of Congress, particularly our new Democratic 
Members, including our new Ranking Member, the gentleman from 
Connecticut Mr. Larson, who has had great reviews by Senator 
Dodd, I will tell you that, who we worked with, of course, last 
year. He and I have already had the opportunity to discuss our 
expectations for, I think, a productive Congress. We both look 
forward to working together on many important issues.
    In addition, I want to also welcome the gentlewoman from 
California, Juanita Millender-McDonald, and also the gentleman 
for Pennsylvania that borders Ohio, Robert Brady. We are 
excited to have you on this committee and really look forward 
to a very productive Congress.
    And, of course, returning are Members Vice Chairman Vern 
Ehlers. And Mr. Mica of Florida is here. And also reappointed 
is John Linder of Georgia, John Doolittle from California, and 
Tom Reynolds from New York.
    So I am glad to be back, and I am sure you are glad to be 
back also, and I look forward to working with all of you in the 
next few years.
    In addition to the campaign and election jurisdiction, 
which I am sure we will be doing some work in the upcoming 
months, the primary responsibility of the committee on House 
Administration is to make sure that the House runs smoothly so 
that Members can better represent their constituents, and that 
allows for full constituent service, which is what we all 
strive for. I also plan to continue the work of the committee 
improving the tools and technology Members have at their 
disposal, and we will look for ways the committee can assist 
Members in the committees of the House to better serve the 
people who elect us to this institution.
    And in addition, as evidenced by the consideration of our 
perimeter security plan we will be undertaking shortly, let me 
emphasize that the safety and security of all who serve, work, 
or visit this institution will remain the highest priority of 
the committee as we continue to build upon many improvements we 
have made since September 11th. This community had a large 
volume of work when Steny Hoyer was here as a Ranking Member, 
and all the Members of the committee worked together. It was a 
very difficult time, but we always made sure that we were 
cautious but calm, and made sure that we had security, we kept 
the people's House open.
    Again, I look forward to working with all the Members, and 
welcome our new Members and our new Ranking Member. And at this 
point I will yield to the gentleman Mr. Larson.
    Mr. Larson. Thank you very much, Mr. Chairman. And may I 
say from the outset what an honor it is to serve on this 
committee and to succeed Steny Hoyer and the outstanding job 
that he did on this committee. He is also an individual who has 
enormous respect for the institution.
    I am also pleased--it is a position that was also held by 
Sam Gejdenson from my State of Connecticut as well as Senator 
Dodd on the Senate side, who you mentioned before. So to say 
that I come to the committee humbly and with a grounded sense 
for the institution would be an understatement. And everything 
that I have heard from my predecessor and anyone that has been 
associated with this committee only has laudatory remarks for 
your role here as Chairman and what is a unique bipartisan 
opportunity to assist the Members here and to help this 
institution grow.
    I would also add that the professional staff that services 
this committee on both sides of the aisle again receives 
enormous accolades for the kind of diligent work that they 
perform on behalf of this institution and its Members and 
staff.
    I am honored to be joined by two distinguished Members who 
have served the United States Congress well, Juanita Millender-
McDonald, the gentlelady from California, and Bob Brady, the 
gentleman from Pennsylvania. And I think all of us are excited 
about the prospect of working with you, Mr. Chairman, and with 
all of our colleagues here on House Administration.
    Leader Pelosi embraces the very themes that you have 
addressed, with the added emphasis on technological innovation, 
membership-orientation, and a keen concern about diversity on 
our committees. I know these are issues that everyone shares, 
and we on this side of the aisle come to the committee with our 
sleeves rolled up and prepared to work with you. Thank you.
    The Chairman. Thank you.
    Other Members. Mr. Ehlers.
    Mr. Ehlers. Let me just comment. Mr. Chairman, I haven't 
had the opportunity to work with Mr. Brady yet, but I serve on 
committees with both Mr. Larson and Ms. Millender-McDonald. 
They are both outstanding Members of both committees and also 
wonderful people to work with. They are genuinely interested in 
doing what is good for the House and for the people of this 
country, and it is a pleasure to have them on this committee.
    Ms. Millender-McDonald. Now that Mr. Ehlers has spoken, I 
suppose I will speak just briefly just to say I do look forward 
to working with all of you. It is a great excitement to be a 
part of such a committee and to work with my dear friend John 
Larson. And so I thank you. I thank my dear friend Vern Ehlers, 
whom I have had the opportunity of working with on many 
committees, and I look forward to working with you, Mr. 
Chairman, as I hear that you are an outstanding chairman. And 
so I look forward to working with you on that.
    The Chairman. Thank you.
    Mr. Mica.
    Mr. Doolittle.
    Mr. Doolittle. Welcome, everyone. Thank you, Mr. Chairman.
    The Chairman. I am receiving my signal from my right here, 
my immediate right. Before we proceed with the adoption of the 
committee rules and oversight, I want to, as a matter of old 
business, notify the committee no action was taken under 
interim authority requiring full committee approval. We will 
certainly bring all Members, and particularly our new Members, 
up to speed on all matters currently before the committee.
    The Chair lays now before the committee resolutions 
adopting the committee rules, the oversight plan for the 108th 
Congress. I want to thank the Ranking Member and staff for 
working with the Majority on these issues. Both of these items 
have been discussed by the Minority and Majority, and with 
bipartisan cooperation, I believe we have an agreement.
    The committee rules as presented only contain one change 
from the rules which governed the committee for the 107th 
Congress, and that is to reflect a change made to the House 
rules and include the rule which grants the chairman the 
authority to postpone ordered recorded votes on the approval of 
measures or matters before the committee. It does not authorize 
the Chair to postpone any procedural votes, although it is 
unlikely this committee will need this flexibility, frankly, 
but it is our determination that it would be included if it 
would be necessary.
    The committee oversight plan as presented contains 
revisions proposed by both the Minority and Majority to reflect 
changes to our oversight priorities, primarily to reflect the 
continued need to focus on the security of the Capitol complex 
as a result of September the 11th of 2001, as well as changes 
to the section related to our jurisdiction in the Federal 
election law which was necessitated by our accomplishments last 
Congress with the passage of the Bipartisan Campaign Reform Act 
and the Help America Vote Act, which Congressman Hoyer was the 
main sponsor with me.
    Is there any discussion on the resolution or the rules?
    Mr. Mica. Move both the rules, Mr. Chairman.
    The Chairman. Recognize Mr. Mica, who has made a motion to 
move the rules. The question is on the motion. Those in favor 
of the motion will say aye.
    Those opposed will say nay.
    And with that, hearing no objection, the rules will be 
adopted.
    Mr. Larson. Mr. Chairman, I would just add that as you have 
suggested, that the Democratic staff is in complete concurrence 
with the rules as they were reviewed and the interim report 
that you referred to as well, And again, I thank you for the 
stellar work that you have done and thank the staff as well.
    the Chairman. Thank you.
    The Chair now lays before the committee a committee 
resolution approving the House perimeter security plan. I do 
want to publicly thank the Sergeant at Arms Bill Livingood, the 
Architect of the Capitol Alan Hantman, and the Chief of the 
Capitol Police Terry Gainer and all of their staff who have 
worked so hard to brief this committee on the plan before us 
and, more importantly, for all the ongoing work they are 
continuing to do to help ensure the security of this House. And 
I know I am speaking for the entire committee when I express 
our sincere appreciation.
    By voting to approve this plan, the committee is taking 
comprehensive action to provide a more secure perimeter for the 
House campus, providing enhanced security for all who serve, 
work, or visit here. While we will always live in a world of 
risk, this plan represents concrete steps that will mitigate 
certain threats and provide us with a level of protection not 
present today.
    Make no mistake, however. Adoption of this plan only 
represents only one of a series of steps which began at this 
committee months ago towards greater physical security and 
ensuring the continuity of operations for the institution. Now, 
because we are in a public forum, in order to protect the 
security-sensitive nature of this matter, I will refrain from 
any further comments on the specifics of the plan at this time.
    I would note also aesthetically it is going to be easier to 
move around the Capitol complex, and the great big round flower 
pots, whenever you want to call them, will be a thing of the 
past soon.
    Is there any discussion?
    Mr. Larson. Mr. Chairman, if I could just remark briefly 
that again I appreciate and echo your sentiments with respect 
to the amount of detail and work and effort that has gone into 
this proposal, and thank you as well for assisting us in 
arranging a briefing for myself and new Members of the 
committee this afternoon, and are in complete agreement with 
the resolution.
    The Chairman. Thank you, I appreciate the support.
    Mr. Ehlers.
    Mr. Ehlers. Mr. Chairman, I would like to raise an issue I 
raised in the discussion when we were presented with the plan, 
and I want to reinforce that. I have not heard back from the 
Architect's office, and maybe it wasn't clear that I would like 
to have heard more from them, but it bothers me greatly that 
the proposed plan, instead of including the Botanic Gardens, 
deliberately goes around the Botanic Gardens. The response at 
the presentation when I asked about it, I was told this would 
cost $1 million more. On reflection, that simply can't be, 
because it is not much greater distance.
    The importance of this is that the Botanic Gardens have no 
protection at this point. There are many events there at which 
Members participate, and there are several events each year at 
which there is a majority of the Members participating. There 
is no police protection now.
    I have been working on a bill and have been working with 
the Senate on that because this issue came up. It is under the 
jurisdiction of the Library Committee, which I chaired the last 
2 years, and we have a bill prepared to require the Capitol 
Police to provide police protection during events there. But 
its is a very vulnerable spot, and I really think that the 
Botanic Gardens should be included within the House perimeter 
security plan.
    I have a motion here to approve it, but I would like to 
propose an amendment first that we approve the House perimeter 
security plan, but ask that the Botanic Gardens be enclosed 
within the perimeter rather than excluded, and particularly at 
that--unless the committees meets again and negates that 
suggestion.
    The Chairman. I actually have had the same discussion, by 
the way, about the Botanical Gardens.
    The Ehlers. And I just don't believe the answer I got.
    The Chairman. I just would like to ask if we could approve 
the perimeter security, and then come back within a short 
period of time to see if we could modify the contract. I don't 
know how that all runs. Would that be acceptable?
    Mr. Ehlers. Well, I don't want them to sign the contract 
first, because then an add-on, as you know, is always more 
expensive than including it in the original bid. Have they gone 
out for bids at this point? I don't even see them here. 
Obviously they are not that concerned about our action on this.
    The Chairman. The only thing I can assure you, I guess is 
that if the committee would support this at another time, they 
would have to amend the plan, I am sure; they would have to 
come back and amend if the committee would approve it.
    The only hesitation I have is I want the perimeter security 
plan to proceed. I just don't know how this, in fact, affects 
possibly having to rebid. I mean, there might be--I am not 
saying I disagree. This might be a legal problem.
    Mr. Ehlers. Have they gone out for bid?
    The Chairman. Well, they also tell me technically it has to 
be in writing because it is an amendment to the resolution. But 
beyond that, I don't want to get real technical. I am just 
saying I don't know if, in fact, this would alter the contract. 
Does anyone know about if it has gone to bid? I am informed 
possibly there would have to be a new R F P issued because it 
wasn't in the original. And again, the only hesitation I have 
is to stop the whole perimeter security at this point in time.
    Mr. Larson. Mr. Chairman.
    The Chairman. Yes, sir.
    Mr. Larson. While--and I certainly appreciate the spirit of 
the amendment and the spirit in which the Chairman is trying to 
work with the Member. And obviously, upon the staff's 
intervention that this would be a violation of the rules, but 
perhaps, as you indicated--and clearly I speak for the 
Democratic side, this is something that we would be open to 
even if it means an added R F P. While I concur with Mr. Ehlers 
that it probably will cost more, and that is unfortunate, but 
the protection of the Botanical Gardens and a possible security 
problem that that poses, I think, is equally warranted, and 
clearly would like to work with the Members to try to bring 
that about, understanding the problem with making sure that we 
have a resolution adopted this evening that deals with the 
immediate security so that the process can get under way.
    The Chairman. Let me just restate. I again had raised this 
issue myself at one point in time. The only hesitation I have 
is this is ready to go, and if we would have to do a new R F P 
and it took, you know, 30, 60, 90-some days. I think if the 
committee comes back and takes a look at this, and the R F P 
goes as planned, and we can come back and amend this and 
include it, then I believe they could do it, and it wouldn't 
hold up the process.
    Mr. Ehlers. Mr. Chairman, if, in fact, this has gone out 
for bids, and bids have been received, I would consider that. I 
am not convinced that has happened yet. There is no dollar 
amount given here. It also says: Hereby approves the House 
perimeter security plan attached hereto and incorporated 
herein. And that is also not--it is not attached hereto and not 
incorporated herein.
    I don't want to be a big pain about this, but, frankly, the 
Architect's office has not given us great cooperation on 
suggestions we have made, and I am concerned about this going 
ahead and then them coming back with a totally inflated figure 
of what it would cost. And I just can't believe their off-the-
cuff estimate to me was correct. I could certainly write an 
amendment to the resolution in one line, but I don't want to 
create a roadblock here----
    Mr. Linder. Will the gentleman yield?
    Mr. Ehlers [continuing]. But I want to make sure there is 
some leverage here that we can listen to.
    I will be pleased to yield to the gentleman from Georgia.
    Mr. Linder. I am curious to know how they would have moved 
ahead with the R F P if they didn't have the approved 
resolution.
    Mr. Ehlers. That is my question, too. And I am not sure 
that they have actually gone out.
    Mr. Linder. Until we approve this resolution, they don't 
have the authority to go out, do they?
    Mr. Ehlers. They may have put out an R F P, but that is a 
different situation than going out for bids.
    The Chairman. The only thing I really hesitate on this very 
clearly is that if, in fact--and I didn't know this is coming. 
So if, in fact----
    Mr. Ehlers. I am sorry.
    The Chairman. That is okay. But if, in fact, we would do 
this, and something would happen, and you know how the law is, 
and they have to go through an entire process, it worries me 
that we have stopped the perimeter security plan, which has 
been in the works for quite a while and everybody has had the 
opportunity to be briefed on. But I am not saying I am against 
what Mr. Ehlers is trying to do; I just think that we move 
ahead with the perimeter security, and we can come back and 
then amend it and get the estimates. And I mean, frankly, I 
don't think it is a bad idea. It is just the fact that I don't 
want to stop the perimeter security plan.
    Mr. Larson. Will the gentleman yield?
    Typically, wouldn't--and again, I don't profess great 
knowledge in this area, but particularly even if the R F P had 
been submitted already, and if the committee instructed the 
Architect immediately to seek a change order prior to them 
breaking ground, it seems that they ought to be able to come 
back with an estimate in a relatively short period of time that 
would incorporate not the inflated costs--and I agree with you 
there, Vern, but something that is more in line with some of 
the balustrades that they showed us in the schematics there. So 
it would seem that they might be able to incorporate that.
    The Chairman. Just let me reiterate. I think it is a good 
idea, and I have questioned all along why we haven't had it, 
but I still don't want to stop the perimeter security plan at 
this point in time.
    Mr. Linder. Mr. Chairman, I move the committee resolution 
approving the House perimeter security plan be adopted.
    The Chairman. It has been moved. Questions on the--yes.
    Ms. Millender-McDonald. Mr. Chairman, can we not approve 
this with a proviso that we return to look at the Botanical 
Gardens security, and it can ride on that premise?
    The Chairman. Absolutely. And I make a commitment that we 
will come back and look at it.
    We have a motion.
    Mr. Ehlers. Soon, I hope.
    The Chairman. Soon.
    And the question is on the motion. Those in favor of the 
motion will say aye.
    Those opposed will say nay.
    With one objection, and the motion is agreed to, and the 
committee resolution approving the House perimeter security 
plan is adopted.
    The next item on the agenda is the resolution dismissing an 
election contest arising from the 6th Congressional District of 
Tennessee. And the clerk will read the motion.
    The Clerk. Resolved, that the election contest relating to 
the office of the Representative from the 6th Congressional 
District of Tennessee is dismissed.
    The Chairman. The Chair recognizes the gentleman from 
Connecticut, Mr. Larson, for the purpose of offering the 
motion.
    Mr. Larson. Thank you, Mr. Chairman.
    Mr. Chairman, there has been a bipartisan agreement that 
the election contest relating to the 6th Congressional District 
of Tennessee is completely frivolous. It should be dismissed 
without consuming any additional time of the committee. And, 
therefore, Mr. Chairman, I move that the committee report 
favorably to the House an original resolution, the text of 
which is before the Members, to dismiss the election contest in 
the 6th Congressional District of Tennessee.
    The Chairman. The Chair agrees with the gentleman from 
Connecticut. Is there any questions or discussions on it? If 
not, the question is on the motion. Those in favor of the 
motion will say aye.
    Those opposed, no.
    Mr. Ehlers.
    Mr. Ehlers. Mr. Chairman, first of all, I would just like 
to make a comment.
    The Chairman. You don't have an amendment to this, do you?
    Mr. Ehlers. No. But I have another motion in a minute. But 
I just want to commend you for this. You certainly dealt with 
this one far more expeditiously than we dealt with the last 
contested case--election, which I chaired.
    The Chairman. I was there with you.
    Mr. Ehlers. and as some of you may remember, it took almost 
2 years.
    Mr. Chairman, I just wanted to point out, when we 
considered the rules and the oversight plan earlier, the motion 
was made by a Member who mentioned only the rules. Therefore, I 
move that the oversight plan for the 108th Congress also be 
approved. We did not officially approve that.
    The Chairman. The motion is on--do you want to read your 
motion one more time?
    Mr. Ehlers. Mr. Chairman, I move that the resolution on the 
oversight plan for the 108th Congress be approved.
    The Chairman. The question is on the motion. Those in favor 
of the motion will say aye.
    Those opposed, say nay.
    And with that, the motion is agreed to.
    I want to thank all the Members again for being here today 
and helping us with the planning and preparation of this 
meeting. I now ask unanimous consent that Members----
    Mr. Doolittle. Mr. Chairman.
    The Chairman. Yes, Mr. Doolittle.
    Mr. Doolittle. Did you actually announce the results of 
that vote?
    The Chairman. I'm sorry?
    Mr. Doolittle. Did you actually announce the result of the 
vote dismissing the election? Maybe you did. I didn't hear it.
    The Chairman. It was unanimous on the dismissal. The motion 
is agreed to, and the resolution dismissing the election 
contest will be reported favorably to the House. And I ask 
unanimous consent that members have 7 legislative days to 
submit material into the Record for those statements, material 
be entered in the appropriate place in the Record. Without 
objection. Hearing none, the material will be so entered.
    I ask unanimous consent that the staff be authorized to 
make technical and conforming changes on all the matters 
considered by the committee at today's meeting. Without 
objection? Noting no objection, so ordered.
    Having completed our business for today, the committee is 
hereby adjourned. I appreciate the time of the members.
    [Whereupon, at 7:32 p.m., the committee was adjourned.]

</pre></body></html>
